Supreme Court, U.S.
FILED

\

No.

NOV 1 2 2020

3io~ S(o o3

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

JAY EARL HAYNES PETITIONER
-Vs.BERT BOYD RESPONDENT

K

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
JAY EARL HAYNES
PRO SE; PETITIONER:
JAY EARL HAYNES # 116336
NORTHEAST CORRECTIONAL COMPLEX
5249 HIGHWAY 67 WEST
P. O. BOX 5000
MOUNTAIN CITY, TENNESSEE 37683
(423)-727-3510

RECEIVED
MAR -'ll 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

received
./

l

▲

NOV 2 \ 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.,

i

QUESTION PRESENTED FOR REVIEW
1. WHETHER THE SIXTH CIRCUIT ERRERED IN DENYING THE
CRETIFICATE OF APPEAEIBILITY?

2

i.

PARTIES
Jay Earl Haynes vs. Bert Boyd, Warden Tennessee Department of Corrections

3

i

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW,

.2

PARTIES,
TABLE OF CONTENTS,

4

TABLE OF AUTHORITIES,

5

PETITION FOR WRIT OF CERTIORARI,

6

JURISDICTION,

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED,

8

STATEMENT OF THE CASE,

9

REASONS FOR GRANTING.THE PETITION,

10

CONCLUSION

11

FORMA PAUPERIS

12 thru 18

4

TABLE OF AUTHORITIES

' Harrington vs. Richter, 562 U.S. 86 (2011),
Lawrence vs. Texas 529 U.S. 558 (2003),
Miller-EL vs. Cockrell, 537 U.S. 322 (2003),
Strickland vs. Washington, 466 U.S. 668 (1984),
Slack vs. McDonald, 529 U.S. 473 (2000),
West vs. Carpenter, 790 F. 693 (6th Cir. 2015),........
Williams vs. Mitchell, 792 F. 3d 606 (6lh Cir. 2Q15),
STATE CASES

i

l

L

Tennessee Code Annotated § 39-13-503,
U.S.C. § 2253,
U.S.C. § 2254,
State vs. Haynes No.: W2012-01917-CCA-R3-CD,
2013 WL 3807992(Tenn. Crim. App. July 17, 2013),
State vs. Haynes No.: W2015-00919-CCA-R3-PC,
2016 WL 750233 (Tenn. Crim. App. February 26, 2016),
Federal Rules of Appellate Procedure 22,

5

—i

i

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

The opinion of the 6,h Circuit Court of Appeals appears at Appendix “A” to the
petition and is unpublished at 20-5603 (61'1 Cir., filed October 22, 2020).

■

i

4

6

JURISDICTION
The date on which the 6th Circuit Court of Appeals decided my case was October 22.
2020. A copy of that decision appears at Appendix “A”.

The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

7

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
ARTICLE V: (in part):
No person shall be held to answer for a capitol, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury,

nor be deprived of life, liberty, or

property, without due process of law; nor shall private property be taken for public use,
without just compensation.
ARTICLE VI: (in part):
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial,
by an impartial jury of the State and district wherein the crime shall have been
committed, which district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining witnesses in his favor, and to have
the Assistance of Counsel for his defense.

When courts apply rational basis review to a state statute, statute is presumed
constitutional under Equal Protection Clause, and the group attacking the statute has the
burden of attacking the legislative arrangement to negate every conceivable basis which
might support it. U.S.C.A. Const. Amend. 14.

Upon analyzing an equal protection claim under the rational basis test, the burden of
showing that a classification is unreasonable and arbitrary is placed upon the individual
challenging the statute, and if any state of facts can reasonably be conceived to justify the
classification or if the unreasonableness of the class is fairly debatable, the statute must
be upheld. U.S.C.A. Const. Amend. 14; West's T.C.A. Const. Art. 11, § 8.

8

STATEMENT OF THE CASE
That former counsel was ineffective for failing to challenge the constitutionality of
the Tennessee Rape statue in derogation of the Supreme Court’s holding in Lawrence vs.
Texas. 539 U.S. 558 (2003).

9

REASONS FOR GRANTING THE PETITION
That his convictions for two counts of Rape is illegal, void, and/or voidable in
violation of his constitutional rights as set forth under the rights to a fair trial and
Effective Assistance of Counsel provided by the U.S. 6th and 14th Amendments and Art.
I, §'s 8 & 9 of Tennessee Constitution.
This Court should hold that: (1) This Federal Habeas Court will excuse Petitioner’s
procedural default even if State law does not require that an ineffective assistance of Trial
Counsel claim be raised in an initial collateral review proceeding, (2) Petitioner’s Trial
Counsel’s performance was “I.A.C.” for failing to call witnesses: (3) Remand is required
to determine whether Petitioner’s Attorney in his first State collateral proceeding was
ineffective and whether the ineffective assistance of Trial Counsel claim was substantial.
Petitioner declares that for the reasons stated above this Court should conclude that
this Court should excuse Petitioner’s procedural default even if State law does not require
that an Ineffective Assistance of Trial Counsel claim be raised in an initial collateral
review proceeding, and relief is required to determine whether Petitioner’s Attorney in
his first State collateral proceeding was Ineffective for not presenting all meritorious
claims and whether the Ineffective Assistance of Trial Counsel claim was substantial.
Petitioner further declares there were substantiated deviations from state and federal
constitutional law in the trial, direct appeal, Rule 11; and Post-Conviction Court’s ruling
denying Petitioner’s requested relief; questions for review were fundamentally unfair
where the Court failed to properly review, apply the proper federal constitutional law,
and deviations substantially prejudiced his rights at trial and all appeal outcomes.
Moreover, the facts and circumstances outlined in this Memorandum Of Law clearly
demonstrates that the Courts and Petitioner’s Attorneys has acted arbitrarily, capricious
and illegally in the handling of his case. The decisions of the Trial and Appellate Courts
are unsupported by evidence, which are both substantial and material in light of the entire
record and not in the best interests of justice.

10

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

/S/ JjxY
JAY EARL HAYNES # 116336
NORTHEAST CORRECTIONAL COMPLEX
5249 HIGHWAY 67 WEST
P. O. BOX 5000
MOUNTAIN CITY, TENNESSEE 37683

11

